No. 19-7
IN THE SUPREME COURT OF THE UNITED STATES
SEILA LAW LLC,
Petitioner,

v.
CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amici Curiae Public Citizen, Americans for Financial Reform Education
Fund, Consumer Federation of America, Consumer Reports, National Association of
Consumer Advocates, Tzedek DC, and U.S. Public Interest Research Group
Education Fund, Inc., in Support of Affirmance contains 7,976 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on January 20, 2020.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

